      DEPARTMENT OF HEALTH & HUMAN SERVICES                                  Office of Inspector General


                                                                             Washington, D.C. 20201




November 29, 2010

TO:           Yolanda J. Butler, Ph.D.
              Acting Director
              Office of Community Services
              Administration for Children and Families


FROM:         /Lori S. Pilcher/
              Assistant Inspector General for Grants, Internal Activities,
                and Information Technology Audits


SUBJECT:      Results of Limited Scope Review at Community Action of Greater Indianapolis,
              Inc. (A-05-10-00072)


The attached final report provides the results of our limited scope review at Community Action
of Greater Indianapolis, Inc. In accordance with the Recovery Act, the Office of Inspector
General (OIG) will provide oversight of covered funds to prevent fraud, waste, and abuse.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that the Office of Inspector
General (OIG) post its publicly available reports on the OIG Web site. Accordingly, this report
will be posted at http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact Lori Pilcher at (202) 619-1175 or through email at
Lori.Pilcher@oig.hhs.gov. We look forward to receiving your final management decision within
6 months. Please refer to report number A-05-10-00072 in all correspondence.


Attachment
 Department of Health & Human Services
            OFFICE OF
       INSPECTOR GENERAL




  RESULTS OF LIMITED SCOPE
REVIEW AT COMMUNITY ACTION OF
  GREATER INDIANAPOLIS, INC.




                        Daniel R. Levinson
                         Inspector General

                         November 2010
                         A-05-10-00072
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

  The designation of financial or management practices as
  questionable, a recommendation for the disallowance of costs
  incurred or claimed, and any other conclusions and
  recommendations in this report represent the findings and
  opinions of OAS. Authorized officials of the HHS operating
  divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

The Community Services Block Grant (CSBG) program was authorized by the Community
Opportunities, Accountability, and Training and Educational Services Act of 1998, P. L. 105-285
(the CSBG Act), to provide funds to alleviate the causes and conditions of poverty in
communities. Within the U.S. Department of Health & Human Services, the Administration for
Children and Families (ACF), Office of Community Services administers the CSBG program.
The CSBG program funds a State-administered network of more than 1,000 local Community
Action Agencies (CAAs) that create, coordinate, and deliver programs and services to low-
income Americans. The CAAs provide services and activities addressing employment,
education, housing, nutrition, emergency services, health, and better use of available income.

Under The American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act),
enacted February 17, 2009, ACF received an additional $1 billion for the CSBG program for
states to alleviate the causes and conditions of poverty in communities. CSBG Recovery Act
funds are distributed to CAAs using the existing statutory formula.

The Indiana Housing and Community Development Authority (State agency) acts as the lead
agency for purposes of carrying out State activities for the CSBG program. The State agency is
responsible for approving the State’s CAA Recovery Act grant applications, and monitoring the
CAAs for compliance with program regulations. The State agency was awarded with an
additional $14,558,833 in Recovery Act funds for the State of Indiana’s CSBG program.

Community Action of Greater Indianapolis, Inc. (the Grantee), a private, nonprofit organization,
provides services for energy assistance, childcare, family support, education, and training
programs to eligible participants. In addition, the Grantee has acted as funding agent for
programs which provide legal services, programs through neighborhood centers, Head Start and
summer jobs programs. During fiscal year (FY) 2009, the State agency awarded the Grantee
$1,356,921 in CSBG grant funds. Additionally, the Grantee was awarded a Recovery Act grant
award totaling $2,377,250. For FY 2009, the Grantee received total Federal grant awards
equaling $23,558,410.

OBJECTIVE

Our objective was to assess the Grantee’s financial viability, capacity to manage and account for
Federal funds, and capability to operate the CSBG program in accordance with Federal
regulations.

SUMMARY OF FINDINGS

Based on our assessment, the Grantee’s financial viability improved over the time of our audit
period. The Grantee has the ability to manage and account for Federal funds and is capable of
operating a CSBG program in accordance with Federal regulations. However, during our review
we noted weaknesses related to: fiscal status, composition of the Board of Directors,


                                                i
safeguarding of Federal funds, and a lack of written policies and procedures for Recovery Act
reporting and segregation of duties.

RECOMMENDATION

In determining whether the Grantee is appropriately managing and accounting for the Recovery
Act grant funding, we recommend that ACF consider the information presented in this report in
assessing the Grantee’s ability to operate the CSBG program in accordance with Federal
regulations and work with the State to address the noted weaknesses.

GRANTEE COMMENTS

In written comments on our draft report, the Grantee generally concurred with the findings and
described actions that it had taken or planned to take to address financial weaknesses. However,
the Grantee disagreed that it lacked a written policies and procedures manual to address proper
grant reporting. The Grantee said a new version of its manual, last revised in 2000, will likely be
submitted to its board by the fourth quarter of 2011. The Grantee’s comments are included in
their entirety in the Appendix to the report.

OFFICE OF INSPECTOR GENERAL RESPONSE

Although the Grantee’s policy manual does have a section which details financial reporting, the
policy manual has not been updated since 2000 and did not include policies and procedures that
address Recovery Act reporting. We maintain that the Grantee lacked proper grant reporting
policies and procedures.




                                                ii
                                                  TABLE OF CONTENTS
                                                                                                                              Page

INTRODUCTION................................................................................................................1

          BACKGROUND .......................................................................................................1
              Community Services Block Grant Program ..................................................1
              Indiana Housing and Community Development Authority ...........................1
              Community Action of Greater Indianapolis, Inc. .........................................1
              Requirements for Federal Grantees ...............................................................1

          OBJECTIVE, SCOPE, AND METHODOLOGY .....................................................2
               Objective ........................................................................................................2
               Scope ..............................................................................................................2
               Methodology ..................................................................................................2

FINDINGS AND RECOMMENDATION.........................................................................3

          FINANCIAL VIABILITY .........................................................................................3

          ADEQUATE SAFEGUARDING OF FEDERAL FUNDS ......................................4

          COMPOSITION OF THE BOARD OF DIRECTORS .............................................4

          POLICIES AND PROCEDURES .............................................................................4

          SEGREGATION OF DUTIES ..................................................................................4

          RECOMMENDATION .............................................................................................5

          GRANTEE COMMENTS .........................................................................................5

          OFFICE OF INSPECTOR GENERAL RESPONSE ................................................5

APPENDIX

          GRANTEE COMMENTS




                                                                    iii
                                       INTRODUCTION

BACKGROUND

Community Services Block Grant Program

The Community Services Block Grant (CSBG) program was authorized by the Community
Opportunities, Accountability, and Training and Educational Services Act of 1998, P. L. 105-285
(the CSBG Act), to provide funds to alleviate the causes and conditions of poverty in
communities. Within the U.S. Department of Health & Human Services, the Administration for
Children and Families (ACF), Office of Community Services administers the CSBG program.
The CSBG program funds a State-administered network of more than 1,000 local Community
Action Agencies (CAAs) that create, coordinate, and deliver programs and services to low-
income Americans. The CAAs provide services and activities addressing employment,
education, housing, nutrition, emergency services, health, and better use of available income.

Under The American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act),
enacted February 17, 2009, ACF received an additional $1 billion for the CSBG program for
states to alleviate the causes and conditions of poverty in communities. CSBG Recovery Act
funds are distributed to CAAs using the existing statutory formula.

Indiana Housing and Community Development Authority

The Indiana Housing and Community Development Authority (the State agency) acts as the lead
agency for purposes of carrying out State activities for the CSBG program. The State agency is
responsible for approving the State’s CAA Recovery Act grant applications, and monitoring the
CAAs for compliance with program regulations. The State agency was awarded with an
additional $14,558,833 in Recovery Act funds for the State of Indiana’s CSBG program.

Community Action of Greater Indianapolis, Inc.

Community Action of Greater Indianapolis, Inc. (the Grantee), a private, nonprofit organization,
provides services throughout Boone, Hamilton, Hendricks, and Marion Counties, in Indiana.
During fiscal year (FY) 2009, the State agency awarded the Grantee $1,356,921 in CSBG grant
funds. Additionally, the Grantee was awarded a Recovery Act grant award totaling $2,377,250.
For FY 2009, the Grantee received total Federal grant awards equaling $23,558,410.

Requirements for Federal Grantees

Pursuant to 45 CFR part 74, grantees of Federal awards must implement written accounting
policies and procedures and maintain financial systems that provide for accurate and complete
reporting of grant-related financial data, effective control over grant funds, and allocation of
costs to all benefitting programs. In addition, grantees must establish written procurement
procedures. Grantees are also required to maintain inventory control systems and take periodic
physical inventory of grant-related equipment. In addition, pursuant to 45 CFR § 74.27, the
allowability of costs incurred by nonprofit organizations is determined in accordance with the

                                                1
provisions of Office of Management and Budget Circular A-122, Cost Principles for Nonprofit
Organizations. The CSBG Act established the CSBG program and sets the requirements and
guidelines for CSBG funds.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to assess the Grantee’s financial viability, capacity to manage and account for
Federal funds, and capability to operate the CSBG program in accordance with Federal
regulations.

Scope

We conducted a limited review of the Grantee’s financial viability, financial management
system, and related policies and procedures. Therefore, we did not perform an overall
assessment of its internal control structure. Rather, we reviewed only the internal controls that
pertained directly to our objective. Our review period was January 1, 2006, through
June 30, 2010.

We performed our fieldwork at the Grantee’s administrative office in Indianapolis, Indiana,
during June 2010.

Methodology

To accomplish our objective, we:

   •    confirmed that the Grantee was not excluded from receiving Federal funds;

   •    reviewed relevant Federal laws, regulations, and guidance;

   •    reviewed the Grantee’s application and implementation of the grant awards for the
        Recovery Act funding;

   •    reviewed the findings related to the most recent State review;

   •    reviewed the Grantee’s policies and procedures related to the CSBG program;

   •    reviewed the Grantee’s by-laws, minutes from the Board of Director meetings,
        composition of Board, and organizational chart;

   •    performed audit steps to assess the adequacy of the Grantee’s current financial systems;
        and

   •    reviewed the Grantee’s audited financial statements and supporting documentation for the
        period of January 1, 2006, through December 31, 2008.
                                                2
We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                           FINDINGS AND RECOMMENDATION

Based on our assessment, the Grantee’s financial viability improved over the time of our audit
period. The Grantee has the ability to manage and account for Federal funds and is capable of
operating a CSBG program in accordance with Federal regulations. However, during our review
we noted weaknesses related to: fiscal status, composition of the Board of Directors,
safeguarding of Federal funds, and a lack of written policies and procedures for Recovery Act
reporting and segregation of duties.

FINANCIAL VIABILITY

Pursuant to 45 CFR § 74.14, grantees should be financially viable. Specifically, this regulation
states that the awarding agency may impose additional requirements as needed if an applicant or
recipient has a history of poor performance or is not financially stable.

To determine whether the Grantee was financially viable, we performed liquidity and stability
analyses of its finances for FYs 2006 through 2008. Our analysis of the Grantee’s fiscal status
has both negative and positive indicators, but indicates a general trend toward improvement of
financial viability.

During FYs 2006 through 2008, the Grantee had unrestricted net asset ratios of .06, .09, and .08,
respectively. This indicates that the Grantee had low reserves to meet temporary cash shortages,
emergencies, or future deficits. The savings indicator ratio for the Grantee is negative for all
three years, (.03). (.01), and (.02) respectively, indicating that the Grantee is using unrestricted
net assets to fund operations. We also performed a debt ratio analysis to determine the overall
financial risk of the organization. The Grantee had debt ratios for each of the FY’s 2006, 2007,
and 2008 of .91, .91, and .89, respectively. A debt ratio greater than 1 indicates that a company
has more debt than assets. The Grantee’s debt ratio is close to reaching this point.

The Grantee has shown improvement with some indicators of fiscal status. The current ratio
which gives an indication of the Grantee’s ability to meet short-term debt obligations continued
to improve during FYs 2006 through 2008. Current ratios greater than 1 indicate a positive
financial position. The current ratio for each of the FY’s 2006, 2007, and 2008 was .47, .82, and
1.01, respectively. Net working capital (current assets minus current liabilities) has continued to
improve with balances of ($4,854,223), ($1,237,380), and $107,067, respectively. Additionally,
the change in net assets was positive for 2007 and 2008, with surpluses of $131,593 and
$312,379, respectively.



                                                 3
ADEQUATE SAFEGUARDING OF FEDERAL FUNDS

Pursuant to 45 CFR § 74.22(i)(2), grantees are required to deposit and maintain advances of
Federal funds in insured accounts whenever possible. Federal Deposit Insurance Corporation
(FDIC) policy states that deposits owned by a corporation, partnership, or unincorporated
association are insured up to $250,000 at a single bank.

The Grantee did not have policies and procedures in place to ensure that bank accounts do not
exceed the FDIC limit of $250,000. The Grantee had one bank account that exceeded the FDIC
limit every month from June 2009 through May 2010 with an average balance of $2,008,051.
For the same time period, the Grantee had an additional bank account that exceeded the FDIC
limit for three of twelve months with an average balance of $165,773. The Grantee did not have
effective internal controls over account balance limits to adequately safeguard deposits.

COMPOSITION OF THE BOARD OF DIRECTORS

Section 676B of the CSBG Act requires that all CSBG agencies administer the CSBG program
through a tripartite board that fully participates in the development, planning, implementation,
and evaluation of the programs to serve low-income communities. The board should be
composed of one-third elected public officials, one-third representatives of the beneficiaries in
areas served by CSBG, and one-third members of business, industry, labor, religious, law
enforcement, education, or other major groups and interests in the community served.

The Grantee’s Board of Directors had two of its fifteen Board of Directors’ positions vacant.
The Board of Directors lacked one elected public official and one community official or
member.

POLICIES AND PROCEDURES

Pursuant to 45 CFR part 74, grantees of Federal awards must implement written accounting
policies and procedures and maintain financial systems that provide for accurate and complete
reporting of grant-related financial data, effective control over grant funds, and allocation of
costs to all benefitting programs.

The Grantee lacked written policies and procedures to address proper grant reporting. During
FY 2009, the Grantee was awarded $2,377,250 in Recovery Act Funding.

SEGREGATION OF DUTIES

Pursuant to 45 CFR § 74.34(f)(4), grantees of Federal awards shall maintain a control system to
insure adequate safeguards to prevent loss, damage, or theft of the equipment. Pursuant to 45
CFR § 74.21(b)(3), grantees of Federal awards shall provide for effective control over and
accountability for all funds, property and other assets. Recipients shall adequately safeguard all
such assets and assure they are used solely for authorized purposes.


                                                 4
The Grantee lacked adequate segregation of duties between inventory record keeping and
performing physical inventories. The Grantee also lacked segregation of duties to safeguard
check writing. The employee responsible for preparing checks also had access to blank checks.
Additionally, the Grantee failed to have someone outside the payroll department review and give
final approval of the payroll records.

RECOMMENDATION

In determining whether the Grantee is appropriately managing and accounting for the Recovery
Act grant funding, we recommend that ACF consider the information presented in this report in
assessing the Grantee’s ability to operate the CSBG program in accordance with Federal
regulations and work with the State to address the noted weaknesses.

GRANTEE COMMENTS

In written comments on our draft report, the Grantee generally concurred with the findings and
described actions that it had taken or planned to take to address financial weaknesses. However,
the Grantee disagreed that it lacked a written policies and procedures manual to address proper
grant reporting. The Grantee said a new version of its manual, last revised in 2000, will likely be
submitted to its board by the fourth quarter of 2011. The Grantee’s comments are included in
their entirety in the Appendix to the report.

OFFICE OF INSPECTOR GENERAL RESPONSE

Although the Grantee’s policy manual does have a section which details financial reporting, the
policy manual has not been updated since 2000 and did not include policies and procedures that
address Recovery Act reporting. We maintain that the Grantee lacked proper grant reporting
policies and procedures.




                                                5
APPENDIX
                                                                                            Page 1 of 5
                                   APPENDIX: GRANTEE COMMENTS




October 27, 2010


Mr. James C. Cox
Regional Inspector General for Audit Services
Office of Audit Services, Region V
233 North Michigan Avenue, Suite 1360
Chicago, IL 60601

VIA EMAIL FOLLOWED BY HARD COPY VIA DIRECT MAIL

Dear Mr. Cox:

Enclosed please fmd the response by Community Action of Greater Indianapolis (CAGI) to your draft
report Results ofLimited Scope Review at Community Action of Greater Indianapolis, Inc. which
accompanied your correspondence dated October 19, 2010.

We have provided what we believe to be accurate and adequate responses to the fmdings in your
communication, and we concur with your sUlmnation that, based on your assessment, CAGI's "financial
viability improved over the time of [y]our audit period. The Grantee has the ability to manage and account
for Federal funds and is capable of operating a CSBG program in accordance with Federal regulations."

If you require any additional information or have any questions concerning our responses, please feel free
to contact me via telephone or email.

Sincerely,

  "...,'~-
?{!~h~                    '­
Edgar N. Tipto ",Jr.    \
Executive Directo?-----_J

Ph: 317-396-1732
Cell: 317-341-4045

enclosure
                                                                                         Page 2 of 5

CAGI Response To OIG Report Number A-05-1 0-00072

FINANCIAL VIABILITY FINDING

Pursuant to 45 CFR § 74.14, grantees should be financially viable. Specifically, this regulation
states that the awarding agency may impose additional requirements as needed if an applicant or
recipient has a history of poor performance or is not financially stable.

To determine whether the Grantee was financially viable, we perfom1ed liquidity and stability
analyses of its finances for FYs 2006 through 2008. Our analysis of the Grantee's fiscal status
has both negative and positive indicators, but indicates a general trend toward improvement of
financial viability.

During FYs 2006 through 2008, the Grantee had unrestricted net asset ratios of .06, .09, and .08,
respectively. This indicates that the Grantee had low reserves to meet temporary cash shortages,
emergencies, or future deficits. The savings indicator ratio for the Grantee is negative for all
three years, (.03). (.01), and (.02) respectively, indicating that the Grantee is using unrestricted
net assets to fund operations. We also performed a debt ratio analysis to determine the overall
financial risk of the organization. The Grantee had debt ratios for each of the FY's 2006, 2007,
and 2008 of .91, .91 , and .89, respectively. A debt ratio greater than 1 indicates that a company
has more debt than assets. The Grantee's debt ratio is close to reaching this point.

The Grantee has shown improvement with some indicators of fiscal status. The current ratio
which gives an indication of the Grantee's ability to meet short-term debt obligations continued
to improve during FY s 2006 through 2008. Current ratios greater than 1 indicate a positive
financial position. The current ratio for each of the FY's 2006, 2007, and 2008 was .47, .82, and
1.01, respectively. Net working capital (current assets minus current liabilities) has continued to
improve with balances of($4,854,223), ($1,237,380), and $107,067, respectively. Additionally,
the change in net assets was positive for 2007 and 2008, with surpluses of $131 ,593 and
$3 12,379, respectively.

Concur.

CAGI is addressing the low reserves issue by:
   ., Seeking an increase in its line of credit commitment from $150K to $300K to meet temporary
        working capital needs
   e    Designing/developing an ongoing fundraising strategy for the agency to obtain additional
        unrestricted revenue
   o    Implementing an increase in the frequency of claims submissions to reduce cash flow
        constrictions

CAGI is addressing the debt ratio concern by limiting the incurrence of additional debt




Page 1
                                                                                                     Page 3 of 5

CAOI Response To 010 Report Number A-05-1 0-00072




ADEQUATE SAFEGUARDING OF FEDERAL FUNDS FINDING

Pursuant to 45 CFR § 74.22(i)(2), grantees are required to deposit and maintain advances of
Federal funds in insured accounts whenever possible. Federal Deposit Insurance Corporation
(FDIC) policy states that deposits owned by a corporation, partnership, or unincorporated
association are insured up to $250,000 at a single bank.

The Grantee did not have policies and procedures in place to ensure that bank accounts do not
exceed the FDIC limit of $250,000. The Grantee had one bank account that exceeded the FDIC
limit every month from June 2009 through May 2010 with an average balance of$2,008,051.
For the same time period, the Grantee had an additional bank account that exceeded the FDIC
limit for three of twelve months with an average balance of$165,773 . The Grantee did not have
effective internal controls over account balance limits to adequately safeguard deposits.

Concur.

CAGI is addressing the $250K FDIC insurance limit issue by:
   • Implementing a procedure to review cash balances and requirements and move funds among
        financial institutions as necessary to insure 100% coverage of funds by FDIC insurance
    •    The agency will open operating accounts at as many financial institutions as necessary to
         manage this process; currently CAGI has banking relationships with two separate financial
         institutions

COMPOSITION OF THE BOARD OF DIRECTORS FINDING

Section 676B of the CSBG Act requires that all CSBG agencies administer the CSBG program
through a tripartite board that fully participates in the development, planning, implementation,
and evaluation of the programs to serve low-income communities. The board should be
composed of one-third elected public officials, one-third representatives of the beneficiaries in
areas served by CSBG, and one-third members of business, industry, labor, religious, law
enforcement, education, or other major groups and interests in the community served.

The Grantee's Board of Directors had two of its fifteen Board of Directors' positions vacant.
The Board of Directors lacked one elected public official and one community official or
member.

Concur.

CAGI is addressing the board vacancy issue by:
   • 	 Contacting the office of the Mayor of Indianapolis and seeking the referral of a specific
        person that the Mayor designates for the open Public Sector position.
   • 	 CAGI is in the process of carrying out the required "democratic process" with local
        nonprofit community organizations to fill the open Community Sector position.
Page 2
                                                                                               Page 4 of 5
,.,.   -~   -   ',_    -
                      ..   ... 

                              -~




 CAGI Response To OIG Report Number A-05-1 0-00072 




POLICIES AND PROCEDURES FINDING

Pursuant to 45 CFR part 74, grantees of Federal awards must implement written accounting
policies and procedures and maintain financial systems that provide for accurate and complete
repOliing of grant-related financial data, effective control over grant funds, and allocation of
costs to all benefitting programs.

The Grantee lacked written policies and procedures to address proper grant reporting. During
FY 2009, the Grantee was awarded $2,377,250 in Recovery Act Funding.

 Concur in part.

CAGI is addressing the policies and procedures issue by:
   • 	 CAGI's fiscal policy manual was last revised in 2000, but a manual does exist. In large
        part due to the conversion to a new accounting system and significant changes in the
        assigned roles of fiscal department staff, fiscal procedures have been in a state offlUX.
        The agency's fiscal policy manual and fiscal procedures manual are currently under
        review and revision by CAGl's newly-appointed Controller with an expectation for
        submission to the Board of Directors of the fourth quarter of 2011.

CAGI represents that it currently possesses and maintains financial systems (Sage MIP Fund
Accounting and its present Cost Allocation Plan) which "provide for accurate and complete
reporting of grant-related financial data, effective control over grant funds, and allocation of
costs to all benefitting programs."

SEGREGATION OF DUTIES FINDING

Pursuant to 45 CFR § 74.34(0(4), grantees of Federal awards shall maintain a control system to
insure adequate safeguards to prevent loss, damage, or theft of the equipment. Pursuant to 45
CFR § 74.21(b)(3), grantees of Federal awards shall provide for effective control over and
accountability for all funds, property and other assets. Recipients shall adequately safeguard all
such assets and assure they are used solely for authorized purposes.

The Grantee lacked adequate segregation of duties between inventory record keeping and
performing physical inventories. The Grantee also lacked segregation of duties to safeguard
check writing. The employee responsible for preparing checks also had access to blank checks.
Additionally, the Grantee failed to have someone outside the payroll department review and give
final approval of the payroll records.

Concur.

CAGI is addressing the blank check access issue by:
   • 	 Requiring all check stock now be maintained in the office of the Controller, which is
        locked when the Controller is not present. No employee responsible for preparing checks

Page 3
                                                                                        Page 5 of 5

CAGI Response To OIG Report Number A-05-10-000n

         has access to the check stock except through the Controller.

CAGI is addressing the inventory segregation of duties issue by:
   • 	 Implementing a process by which the physical inventory of assets will be performed by a
       fiscal department employee, while the inventory record-keeping will be performed by the
        IT staff.

CAGI is addressing the payroll segregation of duties issue by:
   • 	 Instituting a process in which some payrolls will be reviewed and preauthorized before
        payment. Currently, the agency reviewed payrolls after the fact on a quarterly basis.
        This review practice will continue. In addition, preauthorization reviews will be
        conducted. The number and frequency of both the pre- and post-payroll reviews will be
        varied as another control. All payroll reviews will be conducted by the Controller.
   • 	 The agency's newly appointed internal auditor will select a random sample containing
        both hourly and salaried employees to reconcile their compensation rates back to the
        data in their personnel files.




Page 4
